No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
TRAVARIS CRAWFORD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Travaris Crawford, pursuant to SUP CT. R. 39.1, respectfully moves
for leave to file the accompanying petition for writ of certiorari in the Supreme Court
of the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ยง 1746.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
July 23, 2020

By:

s/ Bernardo Lopez
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

